IN THE SUPREME COURT OF THE UNITED STATES
MCGINNIS, MAURICE, BY HIS CONSERVATOR
DERRICK K. JONES
Petitioner
vs.

No:

20-0057

SONNY PERDUE, SECRETARY OF AGRICULTURE, ET
AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
August 21, 2020
cc:
JOHN M. SHOREMAN
MCFADDEN & SHOREMAN
1050 CONNECTICUT AVENUE, NW
SUITE 500
WASHINGTON, DC 20036
MARIO BERNARD WILLIAMS
NDH LLC
44 BROAD STREET NW
SUITE 200
ATLANTA, GA 30303

